No. 20-5570

IN THE

Supreme Court of the United States
RICHARD BERNARD MOORE,
Petitioner,

v.
BRYAN P. STIRLING, Commissioner, South
Carolina Department of Corrections, MICHAEL
STEPHAN, Warden of Broad River Correctional
Institution,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the
Brief of Amicus Curiae of the National Association of Criminal Defense
Lawyers in Support of Petitioner contains 5,915 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d), in
compliance with the word limit set forth in Supreme Court Rule 33.1(g)(x).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on the 2nd of October, 2020.
/s/

Jonathan L. Marcus
Jonathan L. Marcus

